lltttigfr States Court of Appels
For the Seventh Circuit
Chicago, Illinois 60604
Submitted August 19, 2020
Decided August 25, 2020
Before
MICHAEL S. KANNE, Circuit Judge
AMY C. BARRETT, Circuit Judge

No. 19-3030
TYRONE ROBINSON,
Petitioner-Appellant,

v.
REED RICHARDSON,
Respondent-Appellee.

Appeal from the United States District
Court for the Western District of
Wisconsin.
No. 3:17-cv-00750-wmc
William M. Conley,
District Judge.
ORDER

Tyrone Robinson has filed a notice of appeal from the denial of his petition under
28 U.S.C. § 2254 and an application for a certificate of appealability. This court has
reviewed the final order of the district court and the record on appeal. We find no
substantial showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, the request for a certificate of appealability is DENIED.

h
finite^ S
For the Seventh Circuit
Chicago, Illinois 60604
October 15, 2020
Before
MICHAEL S. KANNE, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

No. 19-3030
TYRONE ROBINSON,
Petitioner-Appellant,

v.
REED RICHARDSON,
Respondent-Appellee.

Appeal from the United States District
Court for the Western District of
Wisconsin.
No. 3:17-cv-00750-wmc
William M. Conley,

Judge.

ORDER
On consideration of the petition for rehearing filed on September 14, 2020, by
appellant Tyrone Robinson, Judge Kanne has voted to deny rehearing. Judge Scudder,
who has been substituted for J^dge Barrett, likewise has voted to deny rehearing.
Accordingly, IT IS ORDERED that the petition for rehearing is DENIED.

(

/

1?
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN

TYRONE ROBINSON,
JUDGMENT IN A CIVIL CASE
Petitioner,
Case No. 17-cv-750-wmc
v.
REED RICHARDSON, Warden,
Stanley Correctional Institution,
Respondent.

This action came for consideration before the court with District Judge
William M. Conley presiding. The issues have been considered and a decision has
been rendered.

IT IS ORDERED AND ADJUDGED that judgment is entered dismissing
petitioner Tyrone Robinson’s petition for a writ of habeas corpus under 28 U.S.C.
§ 2254.

Is/
Peter Oppeneer, Clerk of Court

6/19/2018
Date

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
TYRONE ROBINSON,
OPINION AND ORDER

Petitioner,

17-cv-750-wmc

v.
REED RICHARDSON, Warden,
Stanley Correctional Institution,
Respondent.

Tyrone Robinson, an inmate at Stanley Correctional Institution, Filed a petition for
a writ of habeas corpus under 28 U.S.C. § 2254 and paid the $5 filing fee. The petition
is now before the court for preliminary review pursuant to Rule 4 of the Rules Governing
Section 2254 Cases. In conducting this review, the court has considered the petition and
its attachments, Robinson’s supporting brief, the decisions of the Wisconsin Court of
Appeals on his direct appeal, State v. Robinson, 2014 WI App 1,11 8, 352 Wis. 2d 245, 841
N.W.2d 580 (unpublished disposition), and his appeal from denial of his post-conviction
motion brought under Wis. Stat. § 974.06, State v. Robinson, 2017 WI App 21, 11 2, 374
Wis. 2d 437, 896 N.W.2d 391 (unpublished disposition). Because these materials show
plainly that Robinson is not entitled to relief, his petition will be dismissed.
BACKGROUND i
Robinson’s conviction arose from events that took place during the night and early

1 The following facts are drawn from the materials cited above, particularly previous state appellate
court decisions.
1
\
y

T3
morning hours of November 21 and 22, 2009. Robinson was later charged in a criminal
complaint filed in Dane County Circuit Court with committing repeated sexual assaults of
the same child, who was then 15 years old; kidnapping; and felony intimidation of a victim.
The victim described to police a number of sex acts that Robinson forced her to
perform in the back of his van, and said he threatened to kill her if she told anyone about
his actions. Law enforcement also obtained DNA evidence from the victim, Robinson and
his van. The state crime lab issued a report finding that stains in the van contained
Robinson's sperm, and the victim’s DNA was found under Robinson’s fingernails and in
;

the van. A swab of the inner front of Robinson's boxer shorts further revealed a DNA
mixture with at least one female and one male contributor. The lab concluded that the
victim here was the source of the major female DNA component, while Robinson was a
possible male contributor, finding (1) “[t]he probability of randomly selecting an unrelated
[female] individual that could have contributed to this mixture profile is approximately” I
in 59,000, and (2) male DNA matching Robinson's profile found inside the victim's
underwear was shared by 73 out of 14,540 males.
After the state crime lab released its findings, Robinson agreed to plead no contest
to one count of second-degree sexual assault of a child and one count of false imprisonment.
By agreeing to plead to one count of sexual assault of a child, Robinson avoided facing trial
on the charge of repeated sexual assaults of a child, which carried a 25-year mandatory
minimum prison sentence. The plea hearing was on March 1, 2010. On May 7, 2010,
the court sentenced Robinson to 17 years of initial confinement to be followed by 13 years
of extended supervision.
2

T5
Robinson was appointed a new lawyer for the purpose of pursuing post-conviction
relief, who moved under Wis. Stat. § 974.02 to withdraw his plea on the grounds that it
was not knowing and voluntary due to defects in the plea colloquy. The only other ground
raised in that motion was for sentencing relief on the basis of the state crime lab’s own
DNA analysis, which petitioner argued proved that it was extremely unlikely that he had
sexual intercourse with the victim. After considering the testimony of Robinson and his
original counsel, the trial court denied the motion.
On November 27, 2013, the Wisconsin Court of Appeals affirmed Robinson’s
conviction; the Wisconsin Supreme Court then denied his petition for review on June 12,
2014. Robinson’s conviction became final 90 days later, on September 10, 2014. See
Anderson v. Litscher, 281 F.3d 672, 674-675 (7th Cir. 2002) (time for seeking direct review
under § 2244(d)(1)(A) includes 90-day period in which prisoner could have filed petition
for writ of certiorari with United States Supreme Court).
On October 5, 2015, a little more than one year after his direct appeal rights had
been exhausted, Robinson filed a pro se, post-judgment motion for relief under Wis. Stat.
§ 974.06, Wisconsin’s collateral attack statute. This time Robinson argued that his trial
counsel had been ineffective in failing to adequately explain the crime lab’s actual findings
or do follow up on potentially exculpatory discovery and that his post-conviction counsel
was ineffective for failing to raise these same claims on direct appeal. His primary claim
was that his trial lawyer had “provided gross misadvice when he misinformed Robinson
that his semen had been found in the alleged victim’s underwear,” a fact he claimed was
material to his decision to enter a plea. Robinson, 2017 WI App 21, at If6. Robinson also
3

claimed that trial counsel had provided ineffective assistance by failing to procure
exculpatory video surveillance recordings or interview additional witnesses. The circuit
court denied petitioner’s motion without an evidentiary hearing, finding that the record
established conclusively that Robinson was not entitled to relief. Among other things, the
court noted that Robinson had testified at the original postconviction hearing “that he
chose to plead in order to avoid the mandatory minimum penalty.” Id. 11 7.
The Wisconsin Court of Appeals affirmed the circuit court’s decision, reviewing
each of Robinson’s claims of ineffective assistance of trial counsel and finding them without
merit. Robinson, 2017 WI App 21, at TO-12. In particular, the court found that the
record refuted Robinson’s assertions that (1) his trial lawyer told him that his semen was
found inside the victim’s underwear and (2) this affected his decision to enter a plea.
Specifically, the court noted that Robinson’s lawyer had introduced the crime lab report as
a defense exhibit at sentencing to demonstrate the lack of inculpatory DNA findings, and
“[a]s plain as day . . . told the sentencing court that Robinson’s semen was not detected in
either his boxers or the victim’s underwear.” Robinson, 2017 WI App 21, II 8. The court
was unmoved by Robinson’s claim that he was “too overmedicated to think clearly or to
hear trial counsel’s sentencing argument,” noting that: (1) when he entered his plea, he
denied that his medication affected his ability to understand what he was doing, id. 11 9;
(2) when Robinson was later represented by post-conviction counsel and “was by his own
admission properly medicated and clear headed,” he filed a postconviction motion that
sought plea withdrawal only on the ground of a defective colloquy, id. 11 10; and (3) at his
original post-conviction hearing, Robinson complained that he was misinformed that the
4

victim’s DNAwas found in the front of his boxer shorts, and “[tjhough he emphasized his
newfound familiarity with and understanding of the crime lab report,” he still did not claim
that he was misinformed by his counsel as to whether or not his semen was found in the
victim’s underwear. /d. H 11.
The Wisconsin Court of Appeals further found that the circuit court had properly
denied Robinson’s remaining claims without an evidentiary hearing. Id. H 12. Addressing
Robinson’s claim that his trial lawyer was ineffective for failing to procure other
exculpatory video surveillance records, the court noted that not only was Robinson aware
that such recordings might exist when he entered his plea, but any claim of prejudice was
purely speculative because Robinson “cannot establish that the recordings actually exist,
much less their exculpatory value.” Id. 51 12. Likewise, the court found that Robinson
* ■

failed to show any prejudice from his lawyer’s claimed failure to interview certain •witnesses.
Id.
Finally, with respect to these last two claims, the Wisconsin Court of Appeals found
that they were procedurally barred by State v. Escalona-Naranjo, 185 Wis. 2d 168, 181-82,
517 N.W.2d 157 (1994), a decision prohibiting a defendant from raising new issues in a
Wis. Stat. § 974.06 motion absent sufficient reason.

The court observed that in

particular, while acknowledging Robinson had asserted the claim that his post-conviction
counsel was ineffective as the reason he failed to assert his claims earlier, Robinson had
failed in his Wis. Stat. § 974.06 motion to allege with particularity how post-conviction
counsel’s conduct was deficient or prejudicial. Id. All Robinson said in his motion was
that his post-conviction lawyer had failed to raise the issues, which was not enough to
5

overcome the strong presumption that post-conviction counsel rendered effective
assistance. Id.
The Wisconsin Supreme Court denied Robinson’s petition for review on July 11,
2017. Robinson filed the instant petition for habeas corpus on September 29, 2017.

OPINION
Rule 4 of the Rules Governing Section 2254 Cases directs this court to dismiss a
petition' if it “plainly appears from the petition and any attached exhibits that the
petitioner is not entitled to relief[.]” If the petition is not dismissed, the judge must order
the respondent to file an answer, motion, or other response within a fixed time, or take
other action. The court's initial review of habeas petitions requires an evaluation of
whether petitioner has set forth cognizable constitutional or federal law claims, and
whether petitioner has exhausted available state remedies. Further, the petition must
cross “some threshold of plausibility” before the state will be required to answer. Harris
v. McAdory, 334 F.3d 665, 669 (7th Cir. 2003); Dellenbach v. Hanks, 76 F.3d 820, 822 (7th
Cir. 1996).
From his petition and supporting brief, P.obinson appears to be seeking habeas relief
on three grounds: (1) the state violated Robinson’s rights to due process when it failed to
turn over potentially exculpatory evidence, namely gas station surveillance videotapes and
the results of HIV/STD testing; (2) trial counsel provided ineffective assistance in violation
of Robinson’s Sixth Amendment right to counsel; and (3) postconviction counsel provided
ineffective assistance. For the reasons set forth below, none of these grounds justify the
6

ZB

&

a'*'*

1"h? „la% {-§oA
issuance of a writ in this case. :

I.

Due Process
Robinson’s claim for denial of due process must be dismissed because he makes no

showing in his petition that the state actually possessed either the gas station videos or
STD testing results, much less that those items would have been material to disproving his
guilt or the basis for punishment.

See Brady v. Maryland, 373 U.S. 83, 87 (1963)

(suppression by prosecution of evidence favorable to accused upon request violates due
process where evidence is material either to guilt or punishment, irrespective of good faith
or bad faith of prosecution).

Instead, Robinson merely speculates that these items

“might” have been exculpatory, which is not enough to establish a plausible due process
claim. Id.

Ineffective Assistance of Trial Counsel
Robinson next alleges that his trial counsel committed the following errors:

(1)

incorrectly advised Robinson that the crime lab report found Robinson’s semen in the

---

Ti\e petition also appears to be untimely.
.V2
v.»

As noted above, Robinson’s conviction became final
September
10,
2014.
Under
28
U.S.C
§§
2244(d)(1)(A) and 2.254(d)(2), Robinson had one
t-»on
year from that date, or until September 10, 2015, to file either a federal habeas petition or a state
< court collateral proceeding that would have tolled the limitations period. Robinson did not file his
&
|hU} 974.06 motion in the state circuit court until October 5, 2015, 25 days after his one-year habeas
aJcIocK expired. He then waited more than two months after the Wisconsin Supreme Court denied
''^^this petition for review to file this federal habeas petition.
J
Ordinarily, this court will allow a petitioner the opportunity to show that his untimeliness
should be excused on grounds of equitable tolling or actual innocence before the court enters an
order dismissing the petition. It is unnecessary to do so in this case because even if the petition
was timely, the grounds asserted for relief are plainly without merit.
7

t

'
-/

:

i

!

t.

■\

,:r\> ,-~!i

.! ’

'

i 1 i')l \G

I

. '.C ')

:i

;

:ji r i

!•;

,.'.A f

7

r

—r

!;iV:

•?

d "x i I

t

Vi iIf; r.w

0.

/

yi

. i.

.1:I

I !

.

1

I'li'K;'-;

.!, ■}!«%

;•*

? ■
■ . I

; :'j:r u'“

;T

i

!i

!

;

. •/.

i

,V; '

;>

t

i

•. i

:5 r.ii If.

V

. t

• '/

‘:0l

r.

i .•

;;:j

l

. i. •

! !

{ :

w.J

.J

■! I

,'i'

!

./'O'.vl

v

7 I' ,'i •

L

V.-iT

V'

‘ V ’

i

•. I

I..S

r.

x-.v

V

il

il [,/>'•'

' ■

•v

V:|

'■:

i.

t.

Cii ;C.

'

r/ i

>
!

•y.

v!i

'i.'.jjji'.v r-r

i

•■r

A

\

U

H1 i‘

■ ■ ?,

/
:•

i

i:

i„

i.

<

.r.i‘

>?

(
/

r

)

r

o ^ w

M

'yr:r

J ■ ■

: i :

%.

i

•:v;
i

t:

:.r

n

i

i

fi

s.

' ! i

l ;• i:ns' ;/)r;"'fi

r.

' i

! r.

>

ri.

;

, ! i...

M’-j

>

r.

;. <

•i

victim’s underwear; (2) failed to develop a defense that would discredit the victim’s version
of events with contradictory statements in the police reports and the state crime lab report,
with a potential witness named Lakeem Allen, and with the gas station surveillance
videotapes; and (3) failed to request a competency hearing before advising Robinson to
enter a plea.
As a starting point, Robinson actually entered a “no contest” plea to the charges for
which he stands convicted. This means that, with respect to his claims of ineffective
assistance of counsel, Robinson must show “that there is reasonable probability that, but
for counsel’s errors, he would not have pleaded guilty and would have insisted on going to
trial.” Hill v. Lockhart, 474 U.S. 52, 59 (1985). For example, where “the alleged error of
counsel is a failure to investigate or discover potentially exculpatory evidence,” a showing
of prejudice “will depend on the likelihood that discovery of the evidence would have led
counsel to change his recommendation as to the plea.” Hill, 474 U.S. at 59. This
assessment, in turn, depends largely on an evaluation of whether the evidence likely would
have changed the outcome of a trial. Id.

A. Alleged Misadvice Concerning Substance of Crime Lab Report
Robinson presented this same claim to the state courts in his Wis. Stat. § 974.06
petition.

As discussed above, both the state circuit and appellate courts found the

following facts of record wholly refuted Robinson’s claim that his.lawyer had misinformed
him about the crime lab's finding of his semen in the victim's underwear.

First, at

sentencing, trial counsel told the court, in Robinson's presence, that Robinson’s semen was
8

not detected in either his boxers or the victim’s underwear. Second, although Robinson
testified at his original post-conviction hearing that he had learned more about the crime
lab report only after his plea and sentencing, he did not claim specifically that he had been
misinformed that his semen was found in the victim’s underwear before his plea, but only
that he had been misinformed that the victim’s DNA was found in the front of his boxer
shorts. Third, “[i]t was only after the circuit court denied the postconviction motion and
Robinson's convictions were affirmed on direct appeal that he alleged a new and different
misunderstanding of the DNA report.” Robinson, 2017 WI App 21, 1111. Fourth and
finally, the circuit court noted that Robinson affirmatively testified at his original
postconviction hearing “that he chose to plead [no contest to a single count of sexual
assault] in order to avoid the mandatory minimum penalty.” Id. 11 7.

For all these

reasons, the Wisconsin courts found no truth to Robinson’s claim that he had been
misinformed as to the crime lab’s findings, nor that this misinformation had been material
to his decision to plead no contest.
In a habeas corpus proceeding brought under 28 U.S.C. § 2254, “a determination
of a factual issue made by a State court shall be presumed to be correct” unless the
petitioner produces clear and convincing evidence to rebut the presumption. 28 U.S.C.
§ 22.54(e)(1).

Although Robinson asserts that the court of appeals’ decision was

erroneous and an unreasonable application of federal law, he does not point to any
evidence, much less evidence that is clear and convincing, to rebut the state courts factual
determination that he had not been misinformed that his semen was found in the victim’s
underwear. Accordingly, this claim plainly lacks merit and will be dismissed.
9

B.

Failure to Investigate

Broadly characterized as a failure to investigate, Robinson’s second claim of
ineffective assistance also falls short. Acknowledging there are various threads to this
claim, Robinson basically alleges that his lawyer should have done more to contest the
charges and challenge the victim’s version of events. For example, Robinson points to
inconsistencies between the victim’s initial statements to police and other reports that he
says his lawyer should have explored.

In addition, he claims his lawyer should have

interviewed an individual by the name of Lakeem Allen (whom the victim originally told
her mother she had been with during the time of the sexual assaults) and should have
procured the gas station videotapes. ^
Assuming for the sake of argument that trial counsel’s performance was deficient,
however, Robinson must still allege facts showing that the evidence he claims his lawyer
should have investigated would have changed the outcome of a trial. As an example,
consistent with the state court proceedings, Robinson does not even plead that the gas
station video surveillance tapes existed, much less that they would have been exculpatory.
Similarly, Robinson fails to allege that the witness he claims his lawyer should have
interviewed would have provided exculpatory testimony. In light of these deficiencies, the
state court of appeals found that Robinson had failed to show prejudice from his trial
counsel’s alleges failures to procure the video surveillance recordings or to interview certain
witnesses. Robmson, 2017 WI App 21, H 12.
Moreover, because that conclusion was based upon a proper understanding of
controlling Supreme Court precedent and a reasonable assessment of the facts in light of
10

13
the evidence presented, Robinson’s petition for habeas corpus on that ground cannot be
granted. See 28 U.S.C. § 2254(d); Harrington v. Richter, 562 U.S. 86, 103 (2011) (“As a
condition for obtaining habeas corpus from a federal court, a prisoner must show that the
state court's ruling on the claim being presented in federal court was so lacking in
justification that there was an error well understood and comprehended in existing law
beyond any possibility for fairminded disagreement.”); Wood v. Allen, 558 U.S. 290, 301
(2010) (state court’s factual determinations are entitled to substantial deference and may
not be superseded even if “[reasonable minds reviewing the record might disagree about
the finding in question) (quoting Williams v. Taylor, 529 U.S. 362, 410 (2000)).
As for Robinson’s claim that his lawyer should have “attack[ed] complainant’s
credibility” by exploring potential inconsistencies between the victim’s statements and
some of the evidence (dkt.#l-l, at 5), Robinson likely defaulted this claim altogether by
failing to present it to the state courts in his Wis. Stat. § 974.06 motion. See also Coleman
v. Hardy, 628 F.3d 314, 318 (7th Cir. 2010) (when a petitioner fails to raise a particular
claim on direct appeal or in post-conviction proceedings, the claim is procedurally
defaulted). In any case, it is plain from the allegations in the petition that this claim has
no merit. First, Robinson does not aver that he was unaware of these “inconsistencies” at
the time he decided to enter his guilty plea. | Second, given the victim’s detailed account
of a series of brutal sexual assaults committed by Robinson, and the presence of
incriminating DNA evidence found in Robinson’s van, boxer shorts and under his
fingernails, the minor inconsistencies thai^/Robinson identifies in the reports would not
likely have led to an acquittal at trial^ Third, Robinson would have faced a 25-year
x

11

X.

/V

7

S
^

T5
mandatory minimum prison sentence if convicted, which by his own admission he was
trying to avoid, there is no reasonable basis to conclude that Robinson would have opted
to go to trial but for the errors he alleges in his petition.

Oft Ly&£.ec&JS. (cuoyCf / /

C. Failure to Request Competency Hearing
Finally, Robinson now asserts that he was so overmedicated that he was
incompetent to enter his original no contest plea, and that his lawyer had reason to know
this.

To be incompetent to stand trial the defendant must “lack[ ] the capacity to

understand the nature and object of the proceedings against him [or her], to consult with
counsel, and to assist in preparing [a] defense.” State v. Garfoot, 207 Wis.2d 214, 222,
558 N.W.2d 626 (1997); Wis. Stat. § 971.13(1).

Thus, a “person is competent to

proceed if: (1) he or she possesses sufficient present ability to consult with his or her
lawyer with a reasonable degree of rational understanding, and (2) he or she possesses a
——rational as well as factual understanding of a proceeding against him or her.” Garfoot, 207
Wis. 2d at 222, 558 N.W.2d 626.
As evidence that his lawyer should have questioned his competence, Robinson
submits medical records from his prison file showing that he was evaluated at Dodge
Correctional Institution on June 24, 2010, and found to have a “heavily sedated demeanor”
and “an apparent toxic level of Depakote and a high level of lithium.” (Dkt.#l*3, at 12). R.obinson then makes the unsworn assertion that he told his trial lawyer that his
medications were making it hard for him to focus on much of anything and that he asked
his lawyer “to talk to someone about it.” (Dkt.#l-1, at 10)
12

^ .

As an initial matter, Robinson acknowledges that he did not present this claim in
his initial post-conviction motion brought under Wis. Stat. § 974.02, but claims this was
because his post-conviction lawyer was ineffective. However, it does not appear that
Robinson raised this claim in his pro se Wis. Stat. § 974.06 motion either, except as a
response to the state’s assertion that he was present at the sentencing hearing when his
lawyer accurately summarized the evidence concerning the presence of semen in the
victim’s underwear, contrary to the same lawyer’s summary Robinson claims he was given
and relied upon fairly contemporaneously. See Robinson, 2017 WI App 21, U 9. Thus,
Robinson appears to have procedurally defaulted this claim by failing to give the state
courts a meaningful opportunity to review it.
Even if not barred by procedural default analysis, Robinson is plainly not entitled
to relief based on facts affirmatively pleaded in his petition and found in the court of
appeals’ decisions. As the court of appeals found, “Robinson told the plea-taking court
that he understood all of the information in his plea questionnaire, his medication did not
affect his ability to understand what he was doing at the plea hearing, he was able to make
decisions about what was in his best interest, and he was thinking clearly at the time he
entered his pleas.” Id. At the evidentiary hearing on his first postconviction motion,
Robinson further testified that when he entered a plea of second-degree sexual assault, he
understood that he was pleading to having sex with a minor, that “sex” included various
forms of penile penetration, hand to penis contact and finger to vagina contact, and “that
he was pleading to having had sex in one way or another with the victim.” State v.
Robinson, 2014 WI App 1,11 9.
13

13
'U
The fact that Robinson was found to be overmedicated nearly four months later y
does not undo his own statements at his plea, which wholly support the state court’s
contemporaneous finding that he had a rational and factual understanding of the case
against him and was able to consult with his lawyer. Moreover, for purpose of claiming
ineffective assistance of counsel, Robinson presents no evidence that his lawyer had any
reason at the time of the plea hearing to question Robinson’s competence, unless the court
were to credit Robinson’s unsworn, self-serving assertion that on some unknown date
Robinson told his lawyer that his medications were making it difficult for him to focus,
which would still not be enough to overcome his sworn, in-court statements and the
findings of the plea-taking court.

28 U.S.C. § 2254(e) (state court factual findings

presumed correct absent clear and convincing evidence).
In sum, because it is plain from the petition and attachments that Robinson is not
entitled to relief on a claim of ineffective assistance of trial counsel, it must be dismissed.

III. Ineffective Assistance of Post-Conviction Counsel
Finally, Robinson claims that his post-conviction lawyer rendered ineffective
assistance by failing to raise any of the foregoing issues in Robinson’s initial, postconviction motion. Because none of these claims have arguable merit for the reasons set
forth above, and certainly were not clearly stronger than the issues counsel actually did
raise, there is no merit to this claim either. See Gray v. Greer, 800 F.2d 644, 646 (7th Cir.
1986) (“Generally, only when ignored issues are clearly stronger than those presented, will
the presumption of effective assistance of [appellate] counsel be overcome.”).
14

B
IV. Certificate of Appealability
If Robinson seeks to appeal this decision, he must first obtain a certificate of
appealability. See 28 U.S.C. § 2253(c) (providing that an appeal may not be taken to the
court of appeals from the final order in a § 2255 proceeding unless a circuit justice or judge
issues a certificate of appealability. A certificate of appealability may issue only if the
petitioner “has made a substantial showing of die denial of a constitutional right.” 28
U.S.C. § 2253(c)(2).

For all the reasons just discussed, Robinson has not made a

substantial showing of the denial of a constitutional right. Therefore, a certificate of
appealability will not issue.

ORDER
IT IS ORDERED that:
1. Tyrone Robinson’s petition for a writ of habeas corpus pursuant to 28 U.S.C.
§ 2254 is DISMISSED pursuant to Rule 4 of the Rules Governing Section 2254 Cases.
2. A certificate of appealability under 28 U.S.C. § 2253(c) is DENTED.
Entered this 18th day of June, 2018.
BY THE COURT:
/s/
WILLIAM M. CONLEY
District Judge

15

"6
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN

TYRONE ROBINSON,
ORDER

Petitioner,

17-cv-750-wmc

v.
REED RICHARDSON, Warden,
Stanley Correctional Institution,
Respondent.

Tyrone Robinson has filed a motion under Fed. R. Civ. P. 59(e) for reconsideration
of this court’s order denying his application for a writ of habeas corpus under 28 U.S.C. §
2254. (Dkt. #10.) Under Rule 59(e), a court has the opportunity to consider newly
discovered material evidence or intervening changes in the controlling law or to correct its
own manifest errors of law or fact to avoid unnecessary appellate procedures. Moro v. Shell
Oil Co., 91 F.3d 872, 876 (7th Cir. 1996); see Harrington v. City of Chi., 433 F.3d 542, 546
(7th Cir. 2006). A “manifest error” occurs when the district court commits a “wholesale
disregard, misapplication, or failure to recognize controlling precedent.”

Burritt v.

Ditlefsen, 807 F.3d 239, 253 (7th Cir. 2015) (internal quotations and citations omitted).
Rule 59(e) “does not provide a vehicle for a party to undo its own procedural failures, and
it certainly does not allow a party to introduce new evidence or advance arguments that
could and should have been presented to the district court prior to the judgment.” Moro,
91 F.3d at 876. Rule 59(e) relief is only available if the movant clearly establishes one of
1

>

I

v-J .

;

s ■.

to

' U’

H', v ; ty

I'.J <w.

i

; !

■;

1'

;■

?:.■

5

i •

It

;

■

•>

p-

5

/1

■f.i

i

!

f.q

-!

! r.

. ::A 7:.• j >;

;* ?.

;

i:

fs

.-.j } <:.ir -j

■ "TCV-S'■

. /!

c

;

?•

tr

.y-,

•t •

! v ff

i

• .'J: (V

■

:

t.

I >1

!

<V,

i ■■

(

i

!

it.-L-O.

!'i. V i

!

'.‘-■j;

i

,’T-'

the foregoing grounds for relief. Harrington, 433 F.3d at 546 (citing Romo v. Gulf Stream
Coach, Inc., 250 F.3d 1119, 1122 n. 3 (7th Cir. 2001)).
Petitioner fails in his Rule 59(e) motion to present any evidence or argument
warranting reconsideration of the judgment in this case. Instead, he simply re-argues all
the same points he made in his petition and supporting brief.

None of petitioner's

arguments convince the court that it committed a manifest error in denying the petition.
Accordingly, the motion for reconsideration is denied.

ORDER
Tyrone Robinson’s motion under Fed. R. Civ. P 59(e) for reconsideration of the
order dismissing his petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254 (dkt.
#10) is DENIED.
Entered this 11th day of September, 2019.
BY THE COURT:
/si
WILLIAM M. CONLEY
District Judge

2

c.

/

*r

L

0
COURT OF APPEALS
DECISION
DATED AND FILED
February 2,2017
Diane M. Fremgen
Clerk of Court of Appeals

Appeal No.

NOTICE
This opinion is subject to further editing. If
published, the official version will appear in
the bound volume of the Official Reports.
A party may file with the Supreme Court a
petition to review an adverse decision by the
Court of Appeals. See WlS. Stat. § 808.10
and Rule 809.62.

Cir. Ct. No. 2009CF1913

2016AP447

STATE OF WISCONSIN

IN COURT OF APPEALS
DISTRICT IV

State of Wisconsin,
Plaintiff-Respondent,

v.
Tyrone T. Robinson,
Defendant-Appellant.

APPEAL from an order of the circuit court for Dane County:
STEPHEN E.EHLKE, Judge. Affirmed.
Kloppenburg, P J., Lundsten and Sherman, JJ.

No. 2016AP447

1U

PER CURIAM.

Tyrone T. Robinson, pro se, appeals an order

denying his WlS. STAT. § 974.06 (2015.-16)1 motion for postconviction relief.
Robinson argues that his postconviction counsel was ineffective for failing to
challenge the effectiveness of his trial counsel and that the circuit court
erroneously denied his motion without conducting an evidentiary hearing. We
reject Robinson’s arguments and affirm.

BACKGROUND

v

In 2010, Robinson pled no contest to second-degree sexual assault of

a child and to false imprisonment. As part of Robinson’s WlS. STAT. Rule 809.30
direct appeal, appointed counsel filed a postconviction motion requesting plea
withdrawal due to a defective plea colloquy, and sentencing relief in light of the
state crime lab’s DNA analysis report.

After considering the testimony of

Robinson and his trial attorney, the circuit court , denied the motion in full. We
affirmed , the judgment of conviction and order denying postconviction relief.
State v. Robinson, No. 2012AP432-CR, unpublished slip op. (WI App Nov. 27,
2013). The Wisconsin Supreme Court denied Robinson’s petition for review.

p

In October 2015, Robinson filed a WlS. STAT. §974.06

postconviction motion for plea withdrawal alleging that trial counsel’s ineffective
assistance rendered his pleas infirm, and that postconviction counsel should have
raised these claims as part of Robinson’s direct appeal. The circuit court denied
Robinson’s motion without an evidentiary hearing,'determining that the record
conclusively established Robinson was not entitled to relief. Robinson appeals.
All references to the Wisconsin Statutes are to the 2015-16 version unless, otherwise
noted.

2

0
No. 2016AP447

STANDARD OF REVIEW

14

To withdraw a guilty or no contest plea after sentencing, a defendant

must show by clear and convincing evidence that a refusal to allow plea
withdrawal would result in a manifest injustice. State v. Dillard, 2014 WI 123,
K83, 358 Wis. 2d 543, 859 N.W.2d 44.

Where ineffective assistance of trial

counsel is the alleged manifest injustice, see State v. Bentley, 201 Wis. 2d 303,
311, 548 N.W.2d 50 (1996), the defendant must prove that counsel’s performance
was deficient and prejudicial.

Strickland v. Washington, 466 U.S. 668, 687

(1984). To establish prejudice, the defendant must demonstrate that “there is a
reasonable probability that, but. for counsel’s errors, he would not have [pled]
guilty and would have insisted on going to trial.” Hill v. Lockhart, 474 U.S. 52,
59 (1985).

15

Because Robinson had a prior postconviction motion, it is not

enough for him to allege that trial counsel’s ineffective assistance constituted a
manifest injustice entitling him to plea withdrawal. Absent a sufficient reason, a
defendant is procedurally barred from raising issues in a Wis. STAT. § 974.06
postconviction motion that could have been raised on direct appeal. State v.
Escalona-Naranjo, 185 Wis. 2d 168, 181-82, "517 N.W.2d 157 (1994). Where as
here the ineffective assistance of postconviction counsel is alleged as the sufficient
reason, the defendant must set forth with particularity facts showing that
postconviction counsel’s performance was both deficient and prejudicial. State v.
Balliette, 2011 WI 79, \2l, 336 Wis. 2d 358, 805 N.W.2d 334 (citing Strickland,
466 U.S. at 687. In addition, as part of the pleading requirements, the defendant
must allege that his newly raised issues are “clearly stronger” than those raised
previously. State v. Starks, 2013 WI 69, |57, 349 Wis. 2d 274, 833 N.W.2d 146.
“[N]o hearing is required if the defendant fails to allege sufficient facts in his or
3

No. 2016AP447 -

■her motion, if the defendant presents only .conclusory allegations or subjective
opinions, or if the record conclusively demonstrates that he of she is not entitled to
relief.” State v. Phillips, 2009 WTApp 179, i|17, 322 Wis. 2d 576, 778 N.W.2d
157.
DISCUSSION

16

Prior to the entry of Robinson’s no contest pleas, the state crime lab

released a report containing its analysis of and findings concerning the DNA
evidence collected and submitted by law enforcement. The primary claim in
Robinson’s WIS. STAT. § 974.06 postconviction motion was that trial counsel
“provided gross misadvice when he. misinformed Robinson that his semen had
been found in the alleged victim’s underwear.”2 Robinson alleged that but for trial
counsel’s incorrect information, he would not have pled and would have
proceeded to trial:

The motion further claimed that trial counsel provided

ineffective assistance by failing to procure potentially exculpatory video
surveillance recordings or interview additional witnesses.

• V

The circuit court determined that Robinson was not entitled to an

■ evidentiary hearing, finding that Robinson’s new claims essentially rehashed the
same issues adjudicated in his prior postconviction proceeding and that to the

2 According to the report, stains containing Robinson’s sperm were located in his van,
where the assaults allegedly occurred. The victim’s DNA was found under Robinson’s
fingernails and in the van. A swab of the inner front of Robinson’s boxer shorts revealed a DNA
mixture with at least one female and one male contributor. The victim was found to be the source
of the major female DNA component, and Robinson was included as a possible male contributor:
“The probability of randomly selecting an unrelated individual that could have contributed to this
mixture profile is approximately” 1 in 59,000. Male DNA matching Robinson’s profile was
detected inside the victim’s underwear. The report concluded thbt this profile'was shared by 73
out of 14,540 males.

4

c

No. 2016AP447

extent the claims were different, Robinson failed to set forth a sufficient reason for
not raising them earlier. The circuit court also rejected Robinson’s claim that he
would not have pled but for trial counsel’s alleged misinformation concerning the
presence of Robinson’s semen in the victim’s underwear. Here, the court cited to
additional DNA evidence as well as Robinson’s testimony at the original
postconviction hearing that he chose to plead in order to avoid the mandatory
minimum penalty.

18

We conclude that the circuit court properly denied Robinson’s

postconviction motion without an evidentiary hearing. See State v. Sulla, 2016 WI
46, H[41, 43, 369 Wis. 2d 225, 880 N.W.2d 659 (whether the record conclusively
demonstrates that a defendant is not entitled to relief presents a question of law
that we review independently). The assertion that trial counsel told Robinson his
semen was found inside the victim’s underwear and that this impacted Robinson’s
decision to plead is belied by the record. At sentencing, trial counsel introduced
the crime lab report as a defense exhibit to demonstrate the lack of inculpatory
DNA findings.

As plain as day, trial counsel told the sentencing court that

Robinson’s semen was not detected in either his boxers or the victim’s underwear.

19

Attempting to circumvent this fatal fact, Robinson maintains he was

^ too overmedicated to think clearly or to hear trial counsel’s sentencing argument
correctly characterizing the nature of the DNA evidence. This self-serving claim
does not warrant an evidentiary hearing. First, Robinson told the plea-taking court
that he understood all of the information in his plea questionnaire, his medication
did not affect his ability to understand what he was doing at the plea hearing, he
was able to make decisions about what was in his best interest, and he was
thinking clearly at the time he entered his pleas. ■

5

No. 2016AP447

*J1'0

Second, prior to the appointment of postconviction counsel,

Robinson asked both trial counsel and an appellate attorney from the State Public
Defender’s Office about the possibility of withdrawing his pleas. Trial counsel
testified that after a meeting, Robinson decided not to pursue plea withdrawal.'
The SPD attorney wrote a letter to Robinson stating that an attempt to withdraw
his pleas “because of medication issues” would be made difficult by Robinson’s
statements at the plea hearing. Thereafter, when Robinson was represented by
postconviction counsel and. was by his own admission properly medicated and
clear headed, he filed a postconviction motion seeking plea withdrawal due to a
defective colloquy. Robinson knowingly bypassed the chance to argue in his'
original postconviction motion that trial counsel’s supposed misinformation
concerning the presence of semen in the victim’s underwear supported plea
withdrawal.
Tfl 1

1

‘

„

Third and in a similar vein, at his original postconviction hearing,

Robinson testified that he did not understand the definition of sexual contact and
complained he was misinformed that the victim’s DNA was found in the front of
his boxer shorts.

Though he emphasized his newfound familiarity with and

understanding of the crime lab report, Robinson did not claim he was misinformed
that his semen was found in the victim’s underwear. It was only after the circuit
court denied the postconviction motion and Robinson’s convictions were affirmed
on direct appeal that he alleged a new and different misunderstanding of the DNA
report. Robinson’s claims of ineffective assistance of trial counsel were properly
rejected by the circuit court without a new evidentiary hearing because the record
as a whole, including the record made at the earlier evidentiary hearing,
conclusively, shows that those claims had no merit.'

6

•'

.

G
Tfl2

No. 2016AP447

We further conclude that the circuit court properly denied

Robinson’s remaining claims without .an evidentiary hearing. As to the charge
that trial counsel was ineffective for failing to procure potentially exculpatory
video surveillance recordings, Robinson was aware that such recordings .might
exist at the time he entered his no contest pleas. Moreover, he cannot establish
that the recordings actually exist,” much less their exculpatory value, and,
therefore, any prejudice is merely speculative. Likewise, Robinson has not shown
any prejudice from trial counsel’s failure to interview certain witnesses. Finally,
though Robinson asserts the ineffective assistance of postconviction counsel as his
sufficient reason for failing to raise these claims earlier, his WlS. STAT. § 974.06
postconviction motion., fails to allege with particularity how postconviction
counsel’s conduct was deficient or prejudicial. Balliette, 336 Wis. 2d 358, TJ18
(whether a postconviction motion is sufficient on its face to require an evidentiary
hearing is a question of law we review independently). Robinson was required to
demonstrate within the four comers of his motion that as a matter of appellate
strategy, his postconviction counsel clearly erred by not challenging trial counsel’s
failure to obtain videos or interview witnesses. See id., 'H65-68. Rather than
asserting specific facts relevant to postconviction counsel’s representation,
Robinson merely alleges that postconviction counsel “presented none of these
issues before the trial court, thereby foreclosing Robinson’s ability to argue these
issues on direct appeal” and “has thus proved ineffective.” See State v. RomeroGeorgana, 2014 WI 83,1}62, 360 Wis. 2d 522, 849 N.W.2d 668 (the mere fact that
postconviction counsel did not pursue • certain claims does not demonstrate
ineffectiveness, and “[w]e will not assume ineffective, assistance from a
conclusory assertion”). Given the strong presumption that postconviction counsel
rendered effective assistance, see Balliette, 336 Wis. 2d 358, fl26, 28, Robinson’s

7

No. 2016AP447

motion fails to establish a reason sufficient to overcome Escalona’s procedural
bar.
By the Court.—Order affirmed.
This opinion will not be published.
809.23(l)(b)5.

8 '

See Wis. Stat. Rule

STATE OF WISCONSIN

CIRCUIT COURT
BRANCH 15

DANE COUNTY

STATE OF WISCONSIN,

FILED

Plaintiff,
vs.
TYRONE ROBINSON.

Case No. 09CF1913
X'

Defendant.

DECISION AND ORDER

This case comes before the court on Tyrone Robinson’s motion for post-conviction relief
pursuant to Wis. Stat. 974.06. Based on a thorough review of the record, Mr. Robinson is not
entitled to any relief. As a result, his request for an evidentiary hearing is summarily DENIED.

BACKGROUND
On March 1, 2010, Mr. Robinson pled no contest to: (1) second degree sexual assault of a
child, and (2) false imprisonment.

On the sexual assault charge, this court sentenced Mr.

Robinson to 17 years confinement and 13 years extended supervision. On the false imprisonment
charge, this court sentenced Mr. Robinson to 2 years confinement and 2 years extended
supervision. The sentences ran concurrently.
On October 27, 2011, Mr. Robinson filed a motion for post-conviction relief. He alleged
that his plea was involuntary because he did not understand the elements of sexual assault, and
that his sentence was based on “inaccurate” information regarding DNA evidence derived from
the victim’s body. On January 6, 2012, this court held an evidentiary hearing. Atty. Schoenfeldt
appeared as post-conviction counsel on behalf of Mr. Robinson, Atty. Raush appeared on behalf
of the State, and the court took comprehensive testimony from Atty. Jensen who served as Mr.
Robinson’s trial counsel.

Among other things, this court concluded that Atty. Jensen’s

representation of Mr. Robinson satisfied Bangert, and that lack of conclusive DNA evidence on
the victim’s body neither proved innocence nor constituted inaccurate information. As a result,
this court denied,the motion on February 16, 2012. The Wisconsin Court of Appeals affirmed on

U3

1

November 27, 2013, and the Wisconsin Supreme Court denied review in December 2013. Mr.
Robinson now files this post-conviction motion alleging ineffective assistance of both trial
*

counsel and post-conviction counsel.
STANDARD OF REVIEW
Motions for post-conviction relief have developed their own particularized standard of
review. Wis. Stat. §974.06 (2011-12); State v. Balliette, 2011 WI 79, 1f 41, 336 Wis. 2d 358,
805 N.W.2d 334. Once the criminal process is complete, and the defendant convicted and
sentenced, the reasons that support a less stringent standard for pretrial motions are no.longer
compelling. Id., | 53. Instead, public policy strongly favors finality. Id. As a result, a petitioner
who seeks to prevail on a post-conviction motion carries the heavy burden of establishing, by
clear and convincing evidence, that the trial court should consider' his motion to correct a
“manifest injustice.5’ State v. Washington, 176 Wis. 2d 205, 213, 500 N.W.2d 331 (Ct. App.
1993).
The mere assertion of “manifest injustice” does not entitle the petitioner to relief. Id. at
214. The motion must set forth sufficient facts, which if true, would entitle him to relief. Id. at
215-16. The Wisconsin Supreme Court provided a practical and specific blueprint for applying
this more demanding standard: the five Vs” and one “h” test, that is, who, what, where, when,
why, and how. State v. Allen, 2004 WI 106,1f 23, 274 Wis. 2d 568, 682 N.W.2d 433. When the
four comers of the document allege the facts described above, it allows the court to meaningfully
assess a petitioner’s post-conviction motion. Balliette, 2011 WI 79, | 59; Allen, 2004 WI 106,
23. Motions that do not meet this standard are typically conclusory allegations that are legally
insufficient. Id.
DISCUSSION
Mr. Robinson seeks to withdraw his guilty plea based: (1) on ineffective assistance of
trial counsel, and (2) ineffective assistance of post-conviction counsel for failure to raise
ineffective assistance of trial counsel. For the reasons discussed below, the motion is denied.
In order to prevail on a claim of ineffective assistance of trial counsel, the defendant must
show by clear and convincing evidence that his attorney’s performance was deficient and that he
was prejudiced as a result of his attorney’s deficient performance. Strickland v. Washington, 466
U.S. 668, 687 (1984). To prove deficient performance, the defendant must identify specific acts
or omissions of his attorney that fall “outside the wide range of professionally competent
2

/

assistance.” Id. at 690. To show prejudice, the defendant must allege that “but for the counsel’s
error, he would not have pleaded guilty and would have insisted on going to trial.” Hill v.
Lockhart, 474 U.S. 52. 59 (1985). If the defendant fails on either prong - deficient performance
or prejudice - his ineffective assistance of counsel claims fails. Strickland, 466 U.S. at 687
(1984).
Further, all grounds for relief must be raised in the original, supplemental or amended
post-conviction motion. Wis. Stat. § 974.06(4) (2013-14). “Any ground finally adjudicated or
not so raised... may not be the basis for a subsequent motion.” Id. Claims of error that could
have been raised in the direct appeal or in a previous motion under §974.06 cannot be raised in a
subsequent §974.06 motion absent a “sufficient reason” for the failure to raise the claims in the
earlier proceeding. State v. Escalona-Naranjo, 185-Wis. 2d 168, 185-86, 517 N.W.2d 157
(1994); State v. Lo, 2003 WI107,144, 264 Wis. 2d 1, 665 N.W.2d 756.
Mr. Robinson’s claims against Atty. Jensen essentially rehash the same issues already
adjudicated by this court in the prior post-conviction motion. Mr. Robinson alleges that Atty.
Jensen misinformed him “as to his semen being found-in CAO’s underwear” and failed to
investigate apparent problems with Robinson’s “mental health,” specifically his foggy memory
due to prescription medication. Both of these claims fall squarely within the two issues finally
adjudicated in the prior post-conviction motion: (1) whether the sentence was based on “accurate
information,” (2) and whether the plea was “voluntary.”
Mr. Robinson’s claim that Atty. Jensen “misinformed” him about the presence of
“semen...in CAO’s underwear” was adjudicated when the court concluded that lack of DNA
evidence on the victim’s body neither proved innocence nor constituted inaccurate information.
Further, Mr. Robinson’s claim that prescription medication prevented him from understanding
the plea was adjudicated when the court concluded that Mr. Robinson understood his plea based
on his request to add and change certain words in Count 1 before taking the plea.

Mr.

Robinson’s new claims merely reframe the issues already adjudicated in the prior motion under a
different theory of ineffective assistance of counsel.
In any case, Mr. Robinson’s “sufficient reason” for failure to raise these specific claims
in the prior motion is unpersuasive. An allegation of “ineffective assistance of post-conviction
counsel” does not in itself constitute a. “sufficient reason” for failure to raise claims in a prior
post-conviction motion. State ex rel Rothering v. McCaughtry, 205 Wis.2d 675, 682, 556

in

3

N.W.2d 136(Ct. App. 1996). This is true because every post-conviction motion filed with the aid
of post-conviction counsel would he subject to review with the rpere allegation that post­
conviction counsel was also “ineffective.”- See id.

Instead, the court analyzes the factual

allegations in the petition to determine whether the ignored issues are clearly stronger than those
presented. Smith v. Robbins, 528 U.S. 259, 288 (2000). To be sure, post-conviction counsel
does not perform “deficiently” by failing to raise meritless arguments. State v. Ziebart, 2003 WI
App 258, H 15, 268 Wis. 2d 468, 673 N.W.2d 369.
Mr. Robinson’s allegation that he would not have entered his plea but for Atty. Jensen’s
errors is undermined by the totality of the record, and cannot serve as the basis for either
ineffective assistance of. counsel claim. The DNA evidence found in Mr. Robinson’s boxer
shorts was consistent with the semen detected in the back of the van where the assaults occurred.
Thus, Mr. Robinson’s testimony at the hearing that he chose to plead out to avoid the maximum
penalties was strong evidence that his plea was voluntary and that it would not have changed
even though semen was not found in the victim’s underwear. Further, Mr. Robinson and Atty.
Jensen negotiated on the plea date, and amended the original Second Degree Sexual Assault
count to include sexual contact as well as sexual intercourse. In fact, the exhibits he attaches in
the petition, Ex. C, Q, N, O, and P, indicate that that his judgment appeared “adequate” and that
he appeared “fully oriented.” Thus, Atty. Schoenfeldt had no basis for asserting ineffective
assistance of trial counsel. Accordingly, the petition for post-conviction relief is denied.
CONCLUSION
Mr. Robinson motion for post-conviction relief is summarily DENIED because an
independent review of the record conclusively establishes that he is not entitled to relief. This
order is final for purposes of appeal.

Dated this 19th day of January, 2016
By the Court:
Vt

Judge *S^hen.Ehlke
Circuit Court Judge
cc: AAG Shelly Rusch
Tyrone Robinson
"/t *>.

■ ■;>

lL

4

D

COURT OF APPEALS
DECISION
dated and filed
November 27, 2013

This opinion is subject to further editing. If
published, the official version will appear in
the bound volume of the Official Reports.
A party may file with the Supreme Court a
petition to review an adverse decision by the
Court of Appeals. See Wis. Stat. § 808.10
and Rule 809.62.

Diane M. Freragen
Clerk of Court of Appeals

Appeal No.

NOTICE

2012AP432-CR

Cir. ct No. 2009CF1913

STATE OF WISCONSIN

IN COURT OF APPEALS
DISTRICT IV

State of Wisconsin,
Plaintiff-Respondent,

v.

-.TT'-T'-v T'7

DEC @ g 2013

Tyrone T. Robinson,
Defendant-Appellant.

APPEAL from a judgment and an order of the circuit court for Dane
County: STEPHEN E. EHLKE, Judge. Affirmed.
Before Higginbotham, Sherman and Kloppenburg, JJ.

Hi

PER CURIAM. Tyrone Robinson

appeals

a judgment of

conviction, entered after he pled no contest to second-degree sexual assault of a
child and false iimprisonment, as well as an order denying his postconviction

1oL

No. 2012AP432-CR

motion.

See WlS. Stat. § 948.02(2) and § 940.30 (2011-12).1

On appeal,

Robinson argues that he is entitled to withdraw his plea of no contest to the sexual
assault count because the plea colloquy did not conform to WlS. Stat. § 971.08 in
that he was never informed, and was otherwise unaware, that the State had to
prove sexual gratification as an element of the offense. Robinson also challenges
the sentence imposed on the sexual assault count. For the reasons set forth below,
we affirm the judgment and order of the circuit court.
BACKGROUND

1P

This case arises from events that took place during the night and

early morning hours of November 21-22,. 2009.

The complaint alleged that

Robinson committed repeated sexual assaults of the same child, who was then
fifteen years old. Robinson pled no contest to second-degree sexual assault of a
child and false imprisonment. On the sexual assault count, the court imposed a
bifurcated sentence of seventeen years of initial confinement and thirteen years of
extended supervision.

On the false imprisonment count, the court imposed a

concurrent bifurcated sentence of two years of initial confinement and two years
of extended supervision.
TP .

After sentencing, Robinson , filed a postconviction motion to

withdraw his plea as to the sexual assault count and to modify his sentence on that
count. The circuit court concluded that Robinson was entitled to an evidentiary
hearing, at which the State had the burden of proof to show by clear and
convincing evidence that the plea was knowingly and voluntarily made. See State

noted.

All references to the Wisconsin Statutes are to the 2011-12 version unless otherwise

\ol
•2

\>
No. 2012AP432-CR

V. Bangert, 131 Wis. 2d 246, 275, 389 N.W.2d 12 (1986). At the conclusion of
the evidentiary hearing, the circuit court denied Robinson’s postconviction
motion. Robinson now appeals.
STANDARD OF REVIEW

1f4

Whether a plea is knowing, intelligent, and voluntary is a question of

constitutional fact. State v. Brown, 2006 WI 100, |19; 293 Wis. 2d 594, 716
' N.W.2d 906.

We will accept the circuit court's findings of historical and

evidentiary fact unless they are clearly erroneous, but whether those facts
demonstrate that the defendant’s plea was knowing, intelligent, and voluntary is
subject to our independent review.

Id.

As to Robinson’s challenge to his

sentence, our review of a sentence is limited to determining whether the circuit
court erroneously exercised its discretion. See State v. Gallion, 2004 WI 42, ^[17,'
270 Wis. 2d 535, 678 N.W.2d 197.
DISCUSSION
Plea Withdrawal

1f5

A defendant who shows by reference to the plea hearing transcript

that the procedures outlined in Wis. STAT. § 971.08 or other court-mandated duties
were not followed at the plea colloquy

a Bangert violation), and further

alleges that he did not understand the omitted information is entitled.to a hearing
f

on

P^ea withdrawal motion. State v. Hampton, 2004 WI 107, fl56-65, 274>

Wis. 2d 379, 683 N.W.2d 14. In this case, it.is not disputed that the plea hearing
transcript reveals that the circuit court did not explain the term “sexual
intercourse” or “sexual conduct” to Robinson during the plea colloquy.
/

3

t)
No. 2012AP432-CR

16

Robinson argues that he was entitled to withdraw his plea after

sentencing because he was never informed, and was otherwise unaware, that the
State had to prove sexual gratification as an element of. second-degree sexual
assault of a child.

The State concedes that the circuit court did not inform

Robinson during the plea colloquy that sexual gratification was an element of the
crim'e. However, the State takes the position that second-degree sexual assault
does not necessarily require proof of sexual gratification.

See WlS. STAT.

§ 948.02(2). 'The State argues that, to prove second-degree sexual- assault of a
child, the State needs only to prove either sexual intercourse or sexual contact by
the defendant, and'that proof of sexual gratification is required only in those cases
where sexual contact is the basis of the crime.

17

Wisconsin Stat. § 948.02(2) states, “Whoever has. sexual contact

or sexual intercourse with a person who has not attained the age of 16 years is
guilty of a Class C felony.” This court has held that, when a defendant pleads
guilty or no contest to sexual assault of a child based on sexual contact, the
defendant must be informed that one element of the crime is that “‘the alleged
contact was for the purpose of defendant’s sexual gratification or the victim’s
humiliation.’” State v. Jipson, 2003 WI App 222, 1J9, 267 Wis. 2d 467, 671
N.W.2d 18 (quoted source omitted). We know of no such requirement when a
.defendant pleads' guilty, or no contest to having sexual intercourse with a child
under the age of sixteen years.

18

In this case, the complaint contains detailed factual accounts of three

separate acts of sexual intercourse between Robinson and the victim that occurred
on November 21-22, 2009.

The complaint also contains allegations of one

incident of sexual contact without intercourse in that same time frame. Before

109
4

No. 2012AP432-CR

accepting Robinson’s plea, the_court asked whether the complaint could provide a
factual basis for the plea. Defense counsel confirmed on the record that it could.

119

In addition, Robinson testified at the evidentiary hearing on the

postconviction motion that, when he pled no contest, he understood second-degree
sexual assault to mean “[hjaving sex with a minor.” He confirmed that, when he
entered his plea, he understood “sex” to include various forms of penile
penetration, hand to penis contact, and finger to vagina contact. He admitted that
he understood that he was pleading to having had sex in one way or another with .
the victim.
//

1)10

.Robinson’s trial counsel, Daryl Jensen, testified at.the evidentiary

hearing that it was his routine practice to go over the elements of the crime
charged with his clients. Although Jensen testified that he could not sav with one
hundred percent certainty that he had discussed the definitions of sexual contact _
and sexual intercourse with Jensen, he believed that he had done so. Jensen also
testified that his notes indicated that he had met with Robinson twenty-six times to
discuss the case. Robinson testified that he, had met with Jensen only two or three
times. Robinson also testified that Jensen never explained the definition of sexual
contact or sexual intercourse to him.
Ifll

*

The circuit court’s decision to deny Robinson’s postconviction

motion was based, in part, on its finding that Jensen’s testimony was credible. We
will not overturn credibility determinations on appeal unless the testimony upon
which they are based is inherently or patently incredible or in conflict with the
uniform course of nature or with fully established or conceded facts. See Global
Steel Prods. Corp. v. Ecklund Carriers, Inc., 2002 WI App 91, ^[10, 253 Wis. 2d

|\0
5

D
No. 2012AP432-CR

588, 644 N.W.2d 269. We find nothing in the record to suggest that that is the
case here.
1(12

Prior to the plea hearing, .the State filed a second amended

information. Jensen requested that the State add the words “or sexual contact” to
Count 1, which previously had alleged only that Robinson “did have sexual
Jensen testified at the
X d id (\ 04postconviction motion hearing that he did this because Robinson had requested
intercourse with a child under the age of sixteen.”

this change. The circuit court indicated in its oral decision on the postconviction
motion that the change to. the second amended information was strong evidence
that Robinson knew what he was pleading to and understood the distinction
between “sexual contact” and “sexual intercourse.” We agree. In light of this and
the other record facts discussed above, we are satisfied.that Robinson’s plea was
knowing and voluntary, such that the circuit court properly denied his motion to
withdraw the plea.
Sentencing
TJ13

Robinson argues that the circuit- court erroneously exercised its

discretion by relying upon inaccurate information at sentencing. A defendant has
a constitutionally protected due process right to be sentenced based upon accurate
information. See U.S. v. Tucker, 404 U.S.. 443 (1972); WlS. CONST, art. I, § 8,
cl. 1: However, a defendant moving for resentencing on the basis that the circuit
court relied upon inaccurate information must establish both that there was
information before the sentencing court that was inaccurate and that the circuit
court actually relied on the inaccurate information. State v. Tiepelman, 2006 WI
66, Tf2, 291 Wis. 2d 179, 717 N.W.2d 1.

''-or -the^r

/ -C.S is Q
6

D
No. 2012AP432-CR

1114

Specifically, Robinson argues that the DNA evidence in this case
*
indicates that it is extremely unlikely that sexual intercourse occurred between him
and the victim. He argues that, therefore, the victim’s allegations in the complaint
were not accurate. Once again, we note that Robinson accepted the facts alleged
in the criminal complaint, with its detailed accounts of sexual intercourse and
sexual contact with the victim, as a factual basis for his plea.
v\

1[15

In addition, Robinson fails to identify any incorrect or inaccurate

//

information related to the DNA evidence. The DNA evidence derived from the
victimVbo^y and the crime scene did not conclusively prove that Robinson was.
guiltyoftheyilleged acts of sexualintercourse. However, as the circuit court noted
both at sentencing and at the conclusion of the evidentiary hearing on the
postconviction motion, the lack of conclusive DNA evidence does not prove that
Robinson *s ihSOcent. Inconclusive evidence is not th:ejame thing as inaccurate
jnfbmiation^and Robinson has failed to identify any inaccurate information relied
upon by the circuit court at sentencing. We find nothing in the record to indicate
that the circuit court erroneously exercised its sentencing discretion.
By the Court.—Judgment and order affirmed.
This opinion will not be published.

See Wis. Stat. Rule

809.23(l)(b)5.

1"he DA//-1 iii/orma-lrlon ouas/hB 1zac/LUra-te //rf^/na+ion/
D, A, Sfiwd -they had DNH ; but- feo. LL^ c/ /<-/n'-j- ,

7

<r

E

»

COURT OF APPEALS OF WISCONSIN - DISTRICT IV
DANE COUNTY

CIRCUIT COURT

STATE OF WISCONSIN

INDEX OF RECORD

STATE OF WISCONSIN,
Plaintiff-Respondent,
V

09 CF 1913/2016 AP 447
TYRONE T. ROBINSON,
Defendant-Appellant
March 31, 2016

() = Preparer’s Parenthetical Additions
DOCUMENT NO.

# PAGES

DOCUMENT DESCRIPTION

1

4

Probable Cause Affidavit and Judicial Determination, signed 11/23/09

2

5

Criminal Complaint, filed 12/01/09

3

1

Court Minutes, Initial Appearance of 12/01/09

4

1

Bail/Bond Information, signed 12/01/09

5

2

Court Minutes, Preliminary Hearing of 12/08/09

6

2

Information, filed 12/10/09

7

2

Plaintiffs Motion and Demand for Discovery and Notice of DNA and Witness List,
filed 12/11/09

8

4

Demand for Discovery and Inspection and Motion for Time to File Additional Pretrial
Motions, filed 12/23/09

9

1

Court Minutes, Arraignment of 01/05/10

10

2

Amended Information, filed 01/05/10

11

1

Bail/Bond Information, filed 01/08/10

12

1

Court Minutes, Final Pre-Trial of 02/23/10

13

1

Court Minutes, Plea Hearing of 03/01/10

14

1

Amended Information, filed 03/01/10

15

2

Plea Questionnaire / Waiver of Rights, filed 03/01/10

16

1

Order for Presentence Investigation Report, filed 03/02/10

17

1

Sealed and Confidential Presentence Investigation Report, filed 04/05/10

18

2

Court Minutes, Sentencing Hearing of 05/07/10

19

1

Sealed and Confidential Report of Laboratory Findings, filed 05/07/10

20

1

Written Explanation of Determinate Sentence, filed 05/07/10

1

T

t7

DOCUMENT DESCRIPTION

DOCUMENT NO.

# PAGES

21

1

Notice of Right to Seek Postconviction Relief, filed 05/07/10

22

3

Judgment of Conviction, filed 05/10/10

23

1

Notice of Intent to Purse Postconviction Relief, filed 05/17/10

24

1

Order for Restitution, filed 06/01/10

25

1

Amended Order for Restitution, filed 07/28/10

26

1

Order to Produce, signed 01/17/11

27

19

Notice of Motion and Motion for Postconviction Relief, filed 10/27/11

28

2

Affidavit in Support of Defendant’s Motion for Postconviction Relief, filed 10/27/11

29

5

State's Opposition to Defendant’s Motion for Postconviction Relief, filed 12/01/11

30

4

Reply Brief, filed 12/14/11

31

1

Order to Produce, signed 12/20/11

32

1

Court Minutes, Motion on Postconviction Hearing of 01/06/12

33

2

Court Minutes, Evidentiary Hearing of 02/10/12

34

1

Exhibit List, filed 02/10/12

35

1 env

36

1

Order Denying Postconviction Relief, filed 02/16/12

37

1

Notice of Appeal, filed 02/27/12

38

1

Clerk’s Certificate

Exhibits, filed 02/10/12

TRANSCRIPTS

39

7

12/01/09 Initial Appearance, filed 06/30/10

^40

64

12/08/09 Preliminary Hearing, filed 01/05/10

41

5

01/05/10 Arraignment, filed 12/14/10

42

13

03/01/10 Status Conference/Plea, filed 10/05/10

^43

50

05/07/10 Sentencing Hearing, filed 05/24/10

44

16

01/06/12 Motion Hearing, filed 03/26/12

45

68

02/10/12 Evidentiary Hearing, filed 03/26/12

46

3

State’s Motion for Permission to Discuss, Cite to, and Quote From Presentence
Investigation Report, filed 08/30/12

2

■*

*

DOCUMENT NO.

# PAGES

DOCUMENT DESCRIPTION

47

1

Order Authorizing State to Discuss, Cite to, and Quote From Presentence
Investigation Report, filed 09/10/12

48

1

Correspondence from Tyrone T. Robinson (re: information), received 03/21/14

49

1

Correspondence from Mark A. Schoenfeldt (response), received 03/31/14

50

1

Order (denying), filed 03/31/14

51

1

Transcript of Judgment from the Supreme Court (petition for review is denied), filed
06/25/14

52

7

Court of Appeals Decision, filed 06/25/14

53

2

Remittitur, filed 06/25/14

54

17

Defendant’s §974.06 Motion for Postconviction Relief, filed 10/13/15

55

270

Affidavit of Tyrone T. Robinson, filed 10/13/15

-K 56

2

Motion for Appointment of Counsel, filed 11/23/15

X,67

1

Order (denying motion), filed 12/03/15

X 58

2

Defendant’s Motion for an Order to Compel Former Counsels’ Presence at the
Machner Hearing, filed 12/07/15

*59

1

Court Minutes, Hearing of 12/14/15

60

3

Correspondence from Shelly Rusch (re: Machner hearing), filed 12/18/15

61

14

State’s Brief in Response to Defendant's 974.06 Motion Alleging Ineffective
Assistant of Postconviction and Trial Counsel, filed 12/18/15

Y 62

4

Decision and Order, filed 01/19/16

63

13

Defendant’s Reply Brief, filed 01/25/16

64

1

Motion for Waiver of Costs of Preparing the Transcript, filed 02/29/16, granted
03/02/16

65

1

Defendant's Statement of the Nature of the Appeal and Requested Relief, filed
02/29/16

66

5

Prisoner’s Petition for Waiver of Fees/Costs - Affidavit of Indigency and supporting
documents, filed 02/29/16

67

1

Notice of Appeal, filed 02/29/16
TRANSCRIPTS

68

18

12/14/15 Hearing, filed 03/30/16

69

1

Clerk’s Certificate

3

